                                                             OFFICE OF INSPECTOR GENERAL
                                                               OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

     Case Number: A04070046                                                                                     Page 1 of 1



           We reviewed an allegation that a university official1misrepresented her academic credentials.
           The credentials in question were included in several NSF proposals, in possible violation of
           NSF's Research Misconduct regulation.2We opened an inquiry to ascertain the facts, and
           determined that the credentials accurately reflected the official's employment history.
           Accordingly, this case is closed.




           1
           2
            The Office of Science and Technology Policy explicitly addressed the issue of credentials in the Preamble for
          Research Misconduct Policy published in the Federal Register, Vol. 65, No. 235, December 6,2000: Does this
          policy address misrepresentation of a researcher's credentials orpublications? Yes, misrepresentation of a
          researcher's credentials or ability to perform the research in grant applications or similar submissions may constitute
          falsification or fabrication in proposing research.



I'
 NSF OIG Form 2 (1 1/02)
